United States Department of Agriculture
Office of Inspector General




Fiscal Year 2012 Farm Service Agency
Farm Assistance Program Payments




                                          Audit Report 03401-0002-11
                                          July 2013
                                                Fiscal Year 2012 Farm Service Agency
                                                 Farm Assistance Program Payments

                                                      Audit Report 03401-0002-11

What Were OIG’s
Objectives
We reviewed a statistical
sample of FSA payments as
part of our audit of the
Department of Agriculture’s
Consolidated Financial              The Office of Inspector General assessed
Statements. Our objective was
to determine if fiscal year         whether FSA properly recorded and
2012 FSA program payments           supported payments made during fiscal
were properly recorded in the       year 2012 through its various farm
accounting system and
adequately supported.               assistance programs.
What OIG Reviewed
                                    What OIG Found
To review FSA’s fiscal year
2012 payments, we                   The Office of Inspector General determined that the Farm Service
statistically selected a sample     Agency (FSA) did not properly record and adequately support all
of 80 FSA payments totaling         fiscal year 2012 FSA program payments. We identified errors related
$3.7 million, obtained              to 12 of the 80 FSA program payments in our statistical sample of
supporting information, and         farm assistance program payments FSA made in fiscal year 2012.
recalculated the payments.          These errors occurred primarily because FSA’s internal controls over
We sampled payments related         the Supplemental Revenue Assistance Payments (SURE) program’s
to seven FSA programs,              manual payment calculation process did not prevent the data errors
including the SURE program.         from occurring. Personnel at county offices made errors when
                                    inputting the data into the manual workbook used to calculate the
What OIG Recommends                 payments, and second-party reviewers did not identify these errors.
                                    FSA has agreed that these 12 errors resulted in improper payments of
We recommend that FSA
                                    $80,480, and has initiated or completed appropriate corrective actions
officials strengthen controls by
                                    for all errors. However, based on the results of these 80 sampled
emphasizing the importance of
                                    payments, we estimated that a total of about $17 million of FSA’s
second-party reviews, and
                                    program payments were improper. Our review identified that FSA’s
develop and implement a
                                    rate of improper payments was 2.3 percent, an increase from the 1.4
checklist to verify the integrity
                                    percent rate we identified in an audit of payments FSA made in fiscal
of SURE workbook inputs.
                                    year 2011. FSA generally agreed with our recommendation and
                                    management decision was reached.
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250



DATE:          July 2, 2013

AUDIT
NUMBER:        03401-0002-11

TO:            Juan M. Garcia
               Administrator
               Farm Service Agency

ATTN:          Philip Sharp
               Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Fiscal Year 2012 Farm Service Agency Farm Assistance Program Payments


This report presents the results of the subject audit. Your written response to the draft report,
dated June 10, 2013, is included in its entirety at the end of the report. Excerpts from your
response and the Office of Inspector General’s position are incorporated in the relevant sections
of the report. Based on your response, we were able to accept management decision on the
recommendation in the report, and no further response to us is necessary.

In accordance with Departmental Regulation 1720-1, final action is required to be taken
within 1 year of management decision to prevent being listed in the Department’s annual Agency
Financial Report. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................... 1
Section 1: Fiscal Year 2012 Improper Payments ................................ 2
Finding 1: FSA Made Improper Farm Assistance Program
Payments .................................................................................................. 2
        Recommendation 1 ......................................................................... 3
Scope and Methodology .......................................................................... 5
Exhibit A: Summary of Monetary Results ........................................... 7
Exhibit B: Statistical Plan....................................................................... 8
Agency’s Response ................................................................................ 11
Background and Objectives

Background

Within the U.S. Department of Agriculture (USDA), the Farm Service Agency’s (FSA) mission
is to equitably serve all farmers, ranchers, and agricultural partners through the delivery of
effective, efficient agricultural programs for all Americans. FSA provides assistance for natural
disaster losses resulting from drought, flood, fire, freeze, tornadoes, pest infestation, and other
calamities. The agency distributes program-related payments through more than 2,345 State and
county offices. In fiscal year 2012, FSA made about $759 million in payments through its
programs. Approximately 75 percent of payments ($570 million) were made through the
Supplemental Revenue Assistance Payments (SURE) program. FSA also made payments
through ten other programs, including the Tree Assistance Program.1

The SURE program provides agricultural disaster assistance to producers who suffer qualifying
crop production losses, crop quality losses, or both, due to disaster(s), adverse weather, or other
environmental conditions. Congress established this permanent crop disaster program in the
Food, Conservation, and Energy Act of 2008 (2008 Farm Bill) for producers who suffered such
losses between the beginning of the 2008 crop year and September 30, 2011. Its inclusion in the
2008 Farm Bill represented a change from the ad hoc crop disaster programs that had served as
Congress’ primary instrument to disburse crop disaster assistance.

FSA has developed a workbook to guide the complex process of calculating SURE payments.2
The manual calculation process includes the use of a series of Excel worksheets and crop data
from various sources, including FSA and the Risk Management Agency (RMA). To complete
the process, county office personnel must complete a significant amount of data entry. For
instance, the SURE workbook used for 2010 program payments contained approximately 35 data
fields, and each producer can have multiple crops. Further, completing each crop line requires
approximately 23 entries. County personnel need to obtain acreage information from RMA,
compare it with FSA information, and reconcile it, if needed. For instance, to ensure that the
producer is eligible for the SURE program, personnel may need to check three data systems.
These checks are also manual, as the workbook does not have the capability to check or
reference other systems. The SURE Information Report may contain numerous pages and record
types, along with differences in how FSA and RMA report the acreage information.

Objectives
The objective of our review was to determine if fiscal year 2012 FSA program payments were
properly recorded in the accounting system and adequately supported.



1
  The Tree Assistance Program provides financial assistance to qualifying orchardists and nursery tree growers to
replant or rehabilitate eligible trees, bushes, and vines damaged by natural disasters occurring between January 1,
2008 and September 30, 2011. The 2008 Farm Bill authorized this program, which is funded through the
Agricultural Disaster Relief Trust Fund.
2
  1-SURE Handbook (October 26, 2012).

                                                                          AUDIT REPORT 03401-0002-11                  1
Section 1: Fiscal Year 2012 Improper Payments

Finding 1: FSA Made Improper Farm Assistance Program Payments
We identified errors related to 12 of the 80 FSA program payments in our statistical sample.
These errors occurred primarily because FSA’s internal controls over the SURE program’s
manual payment calculation process did not prevent the data errors from occurring. Personnel at
county offices made errors when inputting the data into the manual workbook used to calculate
the SURE program payments, and second-party reviewers did not identify these errors. FSA has
agreed that these 12 errors resulted in improper payments of $80,480, and has initiated or
completed appropriate corrective actions for all errors. However, based on the results of these 80
sampled payments, we estimated that a total of about $17 million of FSA’s program payments
were improper.3
In response to previous audits, FSA has taken steps intended to reduce SURE program payment
errors and enhance the manual process that employees use to calculate payments.4 For instance,
FSA has implemented the SURE Data Query Tool, a web-based software that employees can use
to export acreage and unit data into the SURE workbook. Use of this optional tool eliminates
part of the manual entry process. Additionally, FSA now provides a table of price and yield data
to the personnel who calculate the payments. Also, in response to our audit findings for fiscal
year 2011, FSA reminded employees of the importance of second-party reviews and the need to
identify deficiencies during such reviews.5

Although FSA has taken these steps, our review identified that FSA’s rate of improper payments
was 2.3 percent, an increase from the previous year’s 1.4 percent rate.6 Of the 12 errors we
found in our statistical sample of 80 payments (including 56 SURE payments), 11 represented
SURE program payments, for a total of $77,980 in improper payments.7 The primary cause for
errors was county office data input errors in the SURE workbook. Errors included, for example,
the use of an incorrect RMA price during the calculation process, or incorrect production-to-
count amounts. 8 In addition to the 11 improper payments, we identified other exceptions to
SURE program payments. These exceptions caused differences in SURE calculated payment

3
  We are 95 percent confident that the improper payments did not exceed $38 million. See exhibit B for additional
information about our statistical plan, including sampling and universe information.
4
  Previous audits include report 03024-0001-11, Fiscal Year 2010 Farm Service Agency Farm Assistance Program
Payments (June 2011); and report 03401-0001-11, Fiscal Year 2011 Farm Service Agency Farm Assistance
Program Payments (May 2012).
5
  SURE Notice 25 to State and county offices (April 12, 2012).
6
  In our audits of fiscal year 2010 and 2011 payments, we recalculated statistically-selected FSA program payments
and estimated improper payment rates of 2 percent and 1.4 percent, respectively. For fiscal year 2010 payments, we
identified 18 improper payments totaling $61,714 and projected improper payments totaling $49 million. For fiscal
year 2011 payments, we identified 14 improper payments, totaling $54,408, and projected improper payments
totaling $28.1 million.
7
  The other error was a Tree Assistance Program payment. For the improper payment, we found the county office
did not use the required actual receipts to calculate the payment. FSA agreed that this error resulted in an improper
payment of $2,500.
8
  Specifically, we found errors related to the National Average Market Price amounts, the crop share entered on the
form, the production-to-count, the RMA indemnity, producer premium, guaranteed basis, adjusted yield, status code
and crop acres, and RMA data for the guaranteed basis and producer premium.

2     AUDIT REPORT 03401-0002-11
amounts. However, these exceptions did not affect the producer’s actual payment because the
producer’s payment calculation already exceeded payment limitations.9 For instance, we
determined that a county office failed to enter certain codes into the workbook, and incorrectly
entered information when using a tool related to yields. We also found a discrepancy in the
RMA data unit personnel used in calculations.10 Additionally, we determined that a county
office did not use data from the correct report when multiplying a certain yield. 11

Although FSA personnel documented second-party reviews of the payments with their initials
and the date that they completed, the reviews did not identify these errors. Specifically,
reviewers did not adequately verify that information on the SURE Information Report was
accurately input into the SURE workbook. Additionally, reviewers did not reconcile all FSA
information against the RMA data that might have eliminated errors in the producer’s crop share
and crop status code.

The rise in the improper payment rate since fiscal year 2011 indicates that FSA should take
additional action to further strengthen controls to reverse this trend in error rates.

As of September 30, 2011, the Department’s authority to operate the SURE program
expired. The deadline for 2011 SURE program payment signup is June 2013, and FSA expects
SURE program payment activity to decline thereafter. However, FSA will be making SURE
payments to farmers in fiscal year 2013, and needs to ensure the accuracy of the payments.

Recommendation 1
We recommend that FSA officials strengthen controls by emphasizing the importance of second-
party reviews and developing and implementing a checklist to verify the integrity of SURE
workbook inputs.

Agency Response
The authority for SURE ended with those crop losses that were due to a natural disaster that
occurred through September 30, 2011. As a result, very little SURE activity remains and sign up
for 2011 SURE ends on June 7, 2013. FSA Handbook 1-SURE, paragraph 21, provides
instructions for using a FSA-770 SURE checklist as an optional management tool State offices
can use to help address deficiencies identified by an audit or review; however, it is not a
requirement. Due to the fact that SURE is in its final stages, FSA has determined not to require a
checklist at this time.

FSA during the May 23, 2013, Deputy Administrator for Farm Programs video teleconference
call with State offices, alerted States of the importance of second-party reviews and highlighted

9
  FSA limits SURE and other farm assistance program payments, collectively. A producer cannot receive, directly
or indirectly, more than $100,000 per person or legal entity for fiscal years 2009 and 2010.
10
   When calculating the RMA indemnity, county personnel failed to enter the RMA unit number, according to the
Handbook 1-SURE, Paragraph 614F.
11
   County personnel used the acres shown in the “A” acreage record report, instead of using the acres shown in the
“Y” subsequent year yield record when multiplying by the yield in the “Y” record.

                                                                         AUDIT REPORT 03401-0002-11                  3
the four areas of concern identified in the audit: share, acres, National Average Market Price,
and data discrepancies between RMA and FSA. In addition, FSA reiterated the importance of
second-party reviews in both FSA Notice SURE-33 (issued May 22, 2013), addressing the end of
signup, and Handbook 1-SURE, amendment 27, subparagraph 665H (issued May 24, 2013).

OIG Position
We accept management decision on this recommendation.




4    AUDIT REPORT 03401-0002-11
Scope and Methodology
We obtained the universe of payments from FSA and statistically selected 80 payments made
from October 1, 2011, through September 30, 2012.12 FSA provided four data extracts that
included program payments for all of fiscal year 2012, totaling $759 million. FSA made the
payments through 11 programs.13

Details on each data extract are as follows:

     · The first extract included payments of about $483 million, made from October 1, 2011,
       through March 31, 2012, from which we statistically selected 50 payments.
     · The second extract included payments of about $196 million, made from April 1, 2012,
       through June 30, 2012, from which we statistically selected 21 payments.
     · The third extract included payments of about $61 million, made from July 1, 2012,
       through August 31, 2012, from which we statistically selected 7 payments.
     · The fourth extract included payments of about $19 million, made in September 2012,
       from which we statistically selected 2 payments.

We relied on the data extracts provided by FSA, and we validated the completeness of that data.
We obtained supporting documentation from FSA offices nationwide, such as applications,
workbooks, invoices, receipts, and production records for each sample and recalculated each
payment. We discussed the samples with FSA officials as we worked to obtain concurrence on
exceptions noted.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




12
  Complete sample design information can be found in exhibit B: Statistical Plan.
13
  The 11 programs included in the universe were Crop Disaster Program; Emergency Assistance for Livestock,
Honey Bees, and Farm-Raised Fish; Emergency Conservation Program; Emergency Forest Restoration Program;
Dairy Indemnity Payment Program; Livestock Compensation Program; Livestock Forage Disaster Program;
Livestock Indemnity Program; Reimbursement Transportation Cost Payment Program for Geographically
Disadvantaged Farmers and Ranchers; SURE; and Tree Assistance Program.

                                                                     AUDIT REPORT 03401-0002-11              5
Abbreviations
FSA ............................. Farm Service Agency
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
RMA ........................... Risk Management Agency
SURE .......................... Supplemental Revenue Assistance Payments Program




6    AUDIT REPORT 03401-0002-11
Exhibit A: Summary of Monetary Results
Finding    Recommendation             Description               Amount                Category
           We recommend
           that FSA officials
           strengthen controls
           by emphasizing
           the importance of
           second-party           FSA Made Improper
                                                             $17.4 million          Questioned
           reviews and              Farm Assistance
    1                                                                             Costs/Loans, No
           developing and          Program Payments
                                                                                     Recovery
           implementing a         in Fiscal Year 2012
           checklist to verify
           the integrity of
           SURE workbook
           inputs.


The table above summarizes the monetary results by finding and includes a description, dollar
amount, and the category of errors found. The table illustrates Finding 1 has $17.4 million of
monetary results based on statistical projections of improper payments.




                                                                AUDIT REPORT 03401-0002-11       7
Exhibit B: Statistical Plan

Objective

This sample was designed to determine if fiscal year 2012 FSA program payments were properly
recorded in the accounting system and adequately supported. We performed this work to
provide coverage for our Department of Agriculture’s Consolidated Financial Statement audit by
determining whether the financial statements were materially affected by the net impact of
improper payments made by FSA, through its various farm assistance programs. 14 A second
objective was to estimate the corresponding “gross total of both over and under payments (i.e.,
not the net of over and under payments)” consistent with the Office of Management and Budget
(OMB) Circular A-123, Appendix C, Part I.A.9. Exhibit B focuses primarily on the second
objective.

Audit Universe

Our universe consisted of $759 million of FSA payments made during fiscal year 2012. To
complete this work prior to OMB’s deadline for annual financial statement audits, we reviewed
these records as they became available over the following four periods:

     ·    6 months ended March 31, 2012.
     ·    3 months ended June 30, 2012.
     ·    2 months ended August 31, 2012.
     ·    1 month ended September 30, 2012.

Sample Design

Consistent with Financial Audit Manual §480.21,15 since the prior year’s improper payment rate
was not high, the Office of Inspector General (OIG) employed monetary-unit sampling, a form
of probability proportional to size sampling.16 Each record’s selection probability was
proportional to the corresponding amount paid, relative to that extract’s total payments.

Based on the previous year’s 1.36 percent gross improper payment rate, OIG selected
80 payments. To achieve consistent coverage over the dollars paid throughout the fiscal year,
the number of payments selected from each of the four extracts was roughly proportional to the
total dollars paid in each extract, approximately one payment per $9.5 million, the average length
of the sampling intervals. This yielded four samples of 50, 21, 7 and 2 by selecting one payment


14
   Audit Report 50401-0003-11, Department of Agriculture’s Consolidated Financial Statements for Fiscal Years
2012 and 2011 (November 2012).
15
   Government Accountability Office and the President’s Council on Integrity & Efficiency, Financial Audit
Manual, July 2008.
16
   More specifically, from a random start in each extract, OIG systematically selected the monetary unit that
succeeded the previously selected unit by an amount equal to that extract’s sampling interval. OIG reviewed all
payments summarized in the records associated with the monetary units selected.

8        AUDIT REPORT 03401-0002-11
     from each interval, with each extract’s interval varying only slightly from the $9.5 million
     average as follows:

          ·    $9.66 million (= $483 million ÷ 50 payments) for 6 months ended March 31, 2012.
          ·    $9.33 million (= $196 million ÷ 21 payments) for 3 months ended June 30, 2012.
          ·    $8.71 million (= $61 million ÷ 7 payments) for 2 months ended August 31, 2012.
          ·    $9.50 million (= $19 million ÷ 2 payments) for September 2012.

     Results

     Based on the sample results, we project about $17.4 million or 2.29 percent of FSA’s
     approximately $759 million farm program assistance payments during fiscal year 2012 were
     improper. We also project a 95-percent chance these improper payments did not exceed $38
     million, or 5 percent of the total paid.

                               Upper             Raw Data (Improper Payments Observed in Sample)
                              Bound of
                 Point       95-Percent
Measure         Estimate     Confidence    6 months ended   3 months ended      2 months ended      September
              (Projection)    Interval     March 31, 2012    June 30, 2012      August 31, 2012       2012

                             (One-tail)*
 Fraction
    of
                               5.00
 universe 2.29 percent                   (1.17 percent)      (4.93 percent)    (0.77 percent)    (0 percent)
                              percent
   (or
 sample)
Value of
                $17.4           $38
improper                                    $23,354             $54,127            $2,999            $0
               million        million
payments
*By definition, total gross improper payments cannot be less than the $80,480 observed in the sample items.

     The table above summarizes the results of our statistical sampling of fiscal year 2012 FSA program
     payments for the four sampled periods by value of improper payments (dollar amount) and fraction
     of the universe (percentage). The table also illustrates the point estimate and upper bound of our
     statistical projection, using a 95-percent confidence level.




                                                                    AUDIT REPORT 03401-0002-11            9
10   AUDIT REPORT 03401-0002-11
Agency’s Response




                  USDA’S
          FARM SERVICE AGENCY'S
         RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 03401-0002-11   11
                     USDA 

                     ~

United States
Department of
Agriculture           DATE:          June 10,2013
Farm and
Foreign               TO:            Assistant Inspector General for Audit
Agricultural
Services                             Office of Inspector General
Farm
Service               FROM:          Philip Sharp, Director lsI
Agency
                                     Operations Review and Analysis Staff
Operations Review
and Analysis Staff
                      SUBJECT:       Resposonding to Official Draft Report, Fiscal Year 2012 Farm
1400 Independence                    Service Agency (FSA) Farm Assistance Program Payments
Ave., SW
Stop 0540                            - Audit 03401-0002-11
Washington. DC
20250-0541
                      The Deputy Administrator for Farm Programs (DAFP) has provided the information
                      below which responds to the subject's audit recommendation.

                      Recommendation 1

                      We recommend that FSA officials strengthen controls by emphasizing the importance of
                      second-party reviews and developing and implementing a checklist to verify the integrity
                      of Supplemental Review Assistance Payment Program (SURE) workbook inputs.

                      Agency Response:

                      The authority for SURE ended with those crop losses that were due to a natural disaster
                      that occurred through September 30,2011. As a result, very little SURE activity remains
                      and sign up for 2011 SURE ends on June 7, 2013. FSA Handbook I-SURE, paragraph
                      21, provides instructions for using a FSA-770 SURE checklist as an optional
                      management tool State Offices can use to help address deficiencies identified by an audit
                      or review; however, it is not a requirement. Due to the fact that SURE is in its final
                      stages, FSA has determined not to require a checklist at this time. To do so this late in
                      the 2011 signup period would create significant county office workload for which FSA
                      does not have the resources.

                      In response to FSA emphasizing the importance of second party reviews, FSA during the
                      May 23, 2013, DAFP video teleconference call with State Offices, alerted States of the
                      importance of second party reviews and highlighted the four areas of concern identified
                      in the audit; share, acres, National Average Market Price, and data discrepancies between
                      the Risk Management Agency and FSA. Notes of the call will be provided under
                      separate cover. In addition, FSA reiterated the importance of second party reviews in
                      both FSA Notice SURE-33 addressing the end of signup and Handbook I-SURE,
                      amendment 27, subparagraph 665H. Both the notice and amendment will also be
                      provided under separate cover in support of FSA's action.
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
